                      AUDIT REPORT
                         12-15




Opportunities Exist for Improved Safeguards over Tuition and
               Student Loan Reimbursements

                       July 13, 2012
Date
July 13, 2012
To
Chief Human Capital Officer
From
Inspector General
Subject

Audit Report - Opportunities Exist for Improved Safeguards over Tuition and
Student Loan Reimbursements
Report Number 12-15

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report. Additional information that members of your staff have
provided subsequent to the issuance of our draft report on May 25, 2012, have also
been incorporated into the final report. The draft report contained individual
names to assist management in its response. Those names have been redacted from
this final report.

We consider management’s comments responsive to the recommendations.
Recommendations 2 through 5 are resolved and considered closed upon issuance of
this final report. Recommendation 1 is resolved but will remain open pending
completion of the agreed upon corrective action.

We appreciate the courtesies extended to the audit staff. If you have any questions
or comments about this report, please do not hesitate to contact me at
(202) 512-0039.




MICHAEL A. RAPONI
Inspector General

Enclosure
Chief Human Capital Officer
Report 12-15
July 13, 2012
Page 2 of 2


cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Chief Financial Officer
Contents

Introduction ........................................................................................................................................................ 1

Results in Brief................................................................................................................................................... 2

Background ......................................................................................................................................................... 5

Results and Recommendations ................................................................................................................. 6

Appendix A – Objectives, Scope, and Methodology.......................................................................... 14

Appendix B - Acronyms Used in the Report ........................................................................................ 16

Appendix C - Management’s Response .................................................................................................. 17

Appendix D - Separation Clearance and Property Return Checklist—
GPO Form 2938 ................................................................................................................................................. 20

Appendix E – Review of Student Loan Reimbursement Data ..................................................... 21

Appendix F – Review of Tuition Reimbursement Data .................................................................. 22

Appendix G - Status of Recommendations ........................................................................................... 24

Appendix H - Report Distribution ............................................................................................................ 25

Major Contributors .......................................................................................................................................... 26
                          Office of Inspector General


Report Number 12-15                                              July 13, 2012


             Opportunities Exist for Improved Safeguards over
               Tuition and Student Loan Reimbursements

Introduction

GPO offers its employees a variety of training and educational opportunities to
complement work experiences and achieve better organizational and individual
performance. One of those opportunities under certain circumstances is that GPO
provides tuition reimbursement to its employees. The employee must sign a service
agreement to continue in service six months beyond completion of the course.
Tuition reimbursement hinges on job relatedness and must relate to achieving the
organization's mission, improving productivity, and providing quality service to its
customers and the public.

GPO may also repay portions of student loans of employees they seek to recruit and
retain. Eligible employees, in professional, technical, administrative, or other
positions, must sign a three-year service agreement to remain with their agencies.
In return, these employees may receive loan repayments of up to $10,000 per year
and $60,000 in total from an agency.

GPO has instituted a policy and a checklist to identify and collect any debts from
employees separating prior to the terms of the service agreement.

During FY 2011, one employee received a student loan reimbursement in the
amount of $10,000 and 10 employee received reimbursement totaling $20,899
under the Tuition Reimbursement Program. For our audit, eight employees were
considered active participants in the Student Loan Reimbursement Program due to
the 3-year retention period (FY 2008 – FY 2011). GPO did not pay any tuition or
student loan reimbursements in FY 2012. Both programs were temporarily
suspended toward the beginning of the third quarter in FY 2011 due to budget
limitations.

GPO employees occasionally become indebted to GPO for not fulfilling service
agreements—an agreement that an employee will continue working at GPO for a
specified period of time after completion of training course or program. If the


                                          1
employee fails to fulfill the requirements of the agreement, GPO has a right to
recover the reimbursed costs.

In July 2010, the Office of Inspector General (OIG) received a hotline complaint
alleging that a former employee was reimbursed $2,070 for tuition and book costs
but separated from GPO prior to fulfilling his service agreement and not repaying
his debt. We substantiated the allegation and reported the results in July 2011. As a
result of this hotline complaint, the OIG initiated an audit to determine to what extent
GPO safeguards its Tuition Reimbursement and Student Loan Reimbursement programs
against employees not fulfilling their service agreements.

To address our objective, we reviewed all program activity from October 1, 2010
through September 30, 2011 to evaluate controls over collecting unfulfilled service
agreements. We reviewed and discussed with management officials, policies,
procedures, and actions taken by GPO managers to reasonably ensure that the
tuition reimbursement and student loan reimbursement programs met GPO’s
objectives when employees did not fulfill their service agreements. We analyzed
100 percent of the program participants during that period.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A.

Results in Brief

To help GPO in a time of budget constraints, we identified opportunities to enhance
controls to address some challenges related to safeguarding the tuition
reimbursement and student loan reimbursement against employees not fulfilling
their service agreements. We found:

•   One employee who received student loan reimbursements separated without
    fulfilling her service agreement and did not repay GPO the $10,000 owed.
•   GPO could not produce copies of signed service agreements for two employees
    prior to receiving student loan reimbursements. One of those employees
    separated without repaying GPO the $10,000 owed.
•   One employee who received tuition reimbursement separated without fulfilling
    the service agreement and did not repay GPO the $779 owed.

During the course of our audit, we also identified opportunities to enhance controls
over college or university course selection. Courses should relate to the
performance of an employee’s current duties or anticipated duties in support of
                                           2
GPO’s mission. We determined that 6 of 10 employees who participated in the
Tuition Reimbursement Program were attending courses unrelated to their job
functions or reported to be pursuing college degrees which contradicts GPO’s policy
that prohibits employees from receiving training solely for the purpose of earning a
college degree.

We believe undeveloped standard operating procedures and the need to conduct
monitoring are major contributing factors to these conditions. Consequently, the
three noted employee’s debts totaling $20,779 were not discovered and collected
before the employees’ departures. In addition, it is unclear what benefit GPO
received from six employees attending courses unrelated to their job duties, totaling
$4,955.

We also noted that while using both programs is a useful tool, in some instances it
may be cumbersome to administer. For example, the Human Capital Office
administers the program and is performing some tasks and activities that could be
uncharacteristic of their function. Program administrators, for instance, must
interact with a number of lending institutions, verify loans, and, at times, act as
collection agencies.

Recommendations

We recommend that the Chief Human Capital Officer: (1) review the records
involving the two former employees who received a student loan reimbursement
and did satisfy the three year work requirement before separating from GPO and
initiate action to collect the funds from those employees, where appropriate, and
review the records involving the former employee who received tuition
reimbursement and did satisfy the six month work requirement before separating
from GPO and initiate action to collect the funds from that employee.

When the Tuition Reimbursement and Student Loan Reimbursement Programs is
reactivated: (2) develop standard operating procedures for the Tuition
Reimbursement and Student Loan Reimbursement Programs, (3) contact all
Business Unit Heads to reiterate eligible course reimbursement requirements as
specified in Directive 625.6a, Chapter 11,“Nominations for Outside Training”, (4)
ensure Service Agreements are executed prior to reimbursement of tuition and
student loan repayment by effectively monitoring this process, and (5) ensure
Separation Clearance and Property Return Checklists are properly completed at the
time an employee separates from GPO by effectively monitoring this process.

Management’s Response.

Management concurred with all recommendations. The GPO Chief Human Capital
Officer is working with the GPO Office of Finance and Administration to collect the
money back from the three former employees. The Chief Human Capital Officer also
                                           3
stated that GPO would implement standard operating procedures, reiterate
reimbursement requirements to Business Unit Heads, and ensure service
agreements are executed for all student loan and tuition reimbursements when
those programs are reactivated. Finally, the Chief Human Capital Officer stated that
the Agency will issue appropriate checklists to departing employees and ensure that
the checklists are completed. The complete text of management’s response is in
Appendix C.




                                         4
Background

In an effort to attract and retain a more skilled workforce, GPO has implemented
several programs for the recruitment, retention, and development of its staff.
Among those programs include the Tuition Reimbursement Program and Student Loan
Repayment Program. Both programs were temporarily suspended towards the
beginning of the third quarter in FY 2011 due to budget limitations.

For the Tuition Reimbursement Program, the employee shall be reimbursed for one
class each semester, or academic equivalent, but not more than two per year.
Reimbursement costs include tuition cost for the class and cost of books and course
materials. The proper justification must be submitted, signed, and approved in
advance by the employee’s supervisor and senior level manager of the
organizational unit. The course must be mission related. The course provides value
for the agency and employee. There are no comparable alternatives that are less
costly. The employee must sign a pre-service agreement to continue in service 6
months beyond completion of the course for each class paid for by the agency. The
employee must receive a grade of “C” or better for an undergraduate class; a grade
of “B” or better for a graduate level class; and a grade of “Pass” under a Pass/Fail
system of grading.

Congress passed a law in 1990 authorizing agencies to repay, at their discretion,
their employees’ student loans as a means to recruit and retain a talented
workforce. The provisions of the federal student loan repayment program
legislation initially authorized student loan repayments of up to $6,000 per year to a
total of $40,000 per employee. These ceilings were later increased to a maximum
amount of $10,000 per calendar year and a total of $60,000. Income and
employment taxes are withheld from the repayment amount. An employee seeking
student loan repayment must sign a written service agreement agreeing to work for
their Agency for a specified time period.

Each of these programs requires the execution of a service agreement whereas the
employee, in exchange for the benefit provided by GPO, agrees to continue working
for the Agency for a specified time period, and if not, agrees to repay the benefit.
With the service agreement, GPO then has the potential to retain employees for at
least the period covered by the service agreement, which also helps to ensure a
greater return from recruitment and training costs. GPO has instituted a policy and
a checklist to identify and collect any debts from employees separating prior to the
terms of the service agreement.




                                          5
Results and Recommendations

GPO has instituted policies that require employees to sign service agreements in
order to participate in the Tuition Reimbursement and Student Loan Repayment
Programs. GPO also developed a policy and a checklist to help ensure that required
clearance steps were completed for separating employees such as determining
whether employees had outstanding debts. These are both safeguards put in place
to prevent abuses and waste and to enhance the initial goals of the program
(recruitment and retention).

These policies have not always been implemented and have not always been
effective. For example, service agreements were not always executed and
separation checklists were not always used. In some instances, when a checklist
was used, a tuition or student loan reimbursement was still not identified.

Policies Related to Tuition and Student Loans Reimbursements

Federal agencies, including the GPO, are authorized to repay all or part of an
outstanding federally issued student loan to facilitate the recruitment or retention
of highly qualified employees. GPO Directive 640.11, "Student Loan Repayment
Program,” February 22, 2002, requires that before any loan payments can be made,
the employee must sign a written agreement to complete a 3-year period of
employment with the GPO or be subject to repaying the benefits.

GPO instruction 625.6A CH-18, “Training and Career Development”, Chapter 11,
“Nominations for Outside Training", September 24, 2004, requires that for
employees to receive reimbursement for courses taught at 2 and 4-year colleges,
universities, graduate schools, and on-line schools the employee must sign a pre-
service agreement to continue in service 6 months beyond completion of the course
for each class paid for by the agency. GPO Form 2938, line 5, contains a specific
check-box for “unfulfilled service agreement for tuition reimbursement”.

GPO Directive 610.16, “Procedures for Employees Separating from the GPO”,
December 13, 2007, establishes controls for ensuring that all necessary GPO officials
are notified, prior to the effective date of separations, so that the proper steps can be
taken to minimize security risks and loss of property. GPO policy requires that
employees complete clearance procedures using GPO Form 2938, “Separation
Clearance and Property Return Checklist,” before termination, transfer, or
separation from employment (see Appendix D).

OMB Circular Number A-123 requires that management controls must provide
reasonable assurance that assets are safeguarded against waste, loss, unauthorized
use, and misappropriation. Management controls developed for agency programs
should be logical, applicable, reasonably complete, and effective and efficient in
accomplishing management objectives. Those controls include developing
                                           6
standard operating procedures and continuous monitoring of programs to ensure
objectives are met.

GPO Instruction 625.6A, “Training and Career Development”, Chapter 11, “Nominations
for Outside Training”, revised September 24, 2004 provides that employees may receive
reimbursement for courses taught at 2 and 4-year colleges, universities, graduate schools,
and on-line schools if certain criteria are met. Paragraph 2 of Chapter 11, “Selection
Criteria” states that employees may not receive training:

    a. Solely for the purpose of earning a degree;

    b. For the purpose of qualifying for a promotion (with certain limited
       exceptions); or

    c. On subjects which are not related to the performance of current duties or
       anticipated duties in support of the agency’s mission.

One Employee Separated without Repaying a Student Loan Reimbursement

We identified a total of eight employees active in the Student Loan Reimbursement
Program during FY 2011. One of the eight employees separated during FY 2011
before fulfilling the service agreement and did not repay her student loan
reimbursement owing GPO $10,0001 (see Appendix E).

Employee 6 2 signed a service agreement on May 27, 2010 agreeing to remain with
GPO for three years after receiving reimbursement for a student loan. Employee 6
received $10,000 ($6,535 net of taxes) on August 13, 2010. Employee 6 separated
from GPO on August 27, 2011 (within 3 years) and did not repay the student loan
reimbursement. Upon separation from GPO, Employee 6 submitted a Separation
Clearance and Property Return Checklist (GPO Form 2983) on which the checkbox
for student loan repayment was checked, however; we saw no evidence of
collection.

GPO Could Not Demonstrate Service Agreements were Always Used for the
Student Loan Reimbursement Program

Of the eight employees active in the Student Loan Reimbursement Program during
FY 2011, Human Capital could not provide us a signed service agreement for two
employees who received student loan reimbursements, as required by Directive



1 Employee received $6,535 after taxes were taken out. Under the terms of the GPO service
agreements for student loans, employees are to repay the gross amount if they do not fulfill the
service agreement.
2 The actual employee names, which were provided to management in the draft report, were

removed from this final report.
                                                  7
640.11, thereby increasing GPO's risk of those employees leaving within three years
of receiving the reimbursements (see Appendix E).

According to Office of Finance and Administration records, Employee 2 signed a
service agreement on August 10, 2010 agreeing to remain with GPO for three years
after receiving reimbursement for a student loan. Employee 2 received $10,000 on
August 13, 2010. Employee 2 separated from GPO on September 10, 2011 (within 3
years) without repaying the student loan reimbursement. Human Capital could not
provide us a copy of the service agreement. Upon her separation from GPO,
Employee 2 did submit a Separation Clearance and Property Return Checklist (GPO
Form 2983); however, the checkbox for student loan repayment was left blank. For
another employee (Employee 5), although GPO could not produce a copy of the
signed service agreement, it could produce evidence that the employee repaid the
student loan reimbursement upon her departure from the Agency.

One Employee Separated without Repaying a Tuition Reimbursement

We found that one employee did not repay $779 related to a tuition reimbursement
that left in FY 2011, prior to fulfilling her 6 month service agreement (see Appendix
F).

Employee 13 signed a service agreement on January 5, 2011 and agreed to remain
with GPO six months past the completion date for any courses paid for by GPO. On
that same day Employee 13 submitted a Claim for Reimbursement for Expenditures
on Official Business to GPO for repayment of book costs ($251.36) related to a
photography course she completed between August and December, 2010.
Employee 13 signed another 6-month service agreement on February 8, 2011
related to another college course. On May 3, 2011 Employee 13 submitted a Claim
for Reimbursement for Expenditures on Official Business to GPO for repayment of
tuition and book costs ($527.76) related to a biology course she completed between
January and April, 2011. Employee 13 left GPO on June 10, 2011, less than six
months from the completion of both classes and did not repay GPO. Upon
Employee 13’s departure she submitted a Separation, Clearance, and Property
Return Checklist (GPO Form 2938); however, the checkbox related to unfulfilled
service agreement for tuition reimbursement was blank.

Six Employees Received Tuition Reimbursements for Courses Unrelated to
their Job Duties

Six of the thirteen college course tuition reimbursements made by GPO during FY 2011
were not made in accordance with Directive 625.6A. The Director, GPO University,
approved each reimbursement. The total cost reimbursed by GPO for those six courses
was $6,249 (see Appendix F).

Below are the details for each instance.

                                           8
Employee 9 of the Office of Finance and Administration was approved September
23, 2010 to be reimbursed for a course in English Composition and Literature at
Liberty University On-line. Employee 9 was reimbursed $1,228.25 on November 30,
2010 for tuition, fee, and books for the online course. The justification for the
course stated that “the increased knowledge from this course will prove invaluable
to F&A’s operations”. We do not believe this course is related to the employee’s
position or organization.

Employee 10 of the Office of the Chief Human Capital Officer was approved on July
30, 2010 to be reimbursed for a course, “Introduction to Business” at Trinity
College. Employee 10 was reimbursed $1,568.25 on November 16, 2010 for tuition
and books. The documented justification for the training stated, "pursuing a degree
at Trinity Washington University and minoring in Human Resources will allow me
to develop here at GPO”. This justification directly contradicts GPO Directive 625.6a
Training and Career Development, Chapter 11 Nominations for Outside Training,
paragraph 2 which states that employees may not receive training solely for the
purpose of earning a degree.

Employee 11, of the Office of Operations Support was approved on September 2,
2010 to be reimbursed for a course, “Personal and Community Health” and "Intro to
Fiction” at Anne Arundel Community College. Employee 11 was reimbursed
$368.64 on March 4, 2011 for tuition and textbooks. The approved justification for
the reimbursement states:

     “I am currently a GS 12/14, I plan to apply for a GS 13 as soon as that position becomes
    available. My current supervisor is a GS-13, he plans on retiring in 3 years. That will leave
    his position available to me as I would have time in grade by then, however a GS-I3 is
    required to have an educational degree which I currently do not possess, to that end l have
    begun working on obtaining a degree”.

GPO Directive 625.6a states that employees may not receive training solely for the
purpose of earning a degree or for obtaining a promotion.

Employee 12 of the Uniformed Police was approved on January 24, 2011 for
reimbursement for a course "Intro to Biochemical Forensics" at George Mason
University. GPO reimbursed Employee 12 $1,654.50 on August 19, 2011 for tuition
and a resource fee. Justification stated only "the course is related to his degree in
criminal justice". GPO Directive 625.6a states that employees may not receive
training solely for the purpose of earning a degree.

Employee 13, Printing Services Assistant for the Congressional Publishing Office
was approved on February 2, 2011 to be reimbursed for a course, “Biological
Science I” at the University of the District of Columbia. GPO reimbursed Employee
13 $527.76 on May 3, 2011 for tuition and textbooks. We do not believe this course
is related to the employee’s position or organization.
                                                  9
Employee 18, of Acquisition Services was approved on January 5, 2011 to be
reimbursed for a course on Pre-algebra at Montgomery College. GPO reimbursed
Employee 18 $902.17 on May 26, 2011. We do not believe this course is related to
the employee’s position or organization.

Standard Operating Procedures and Monitoring Should be Enhanced

In part, the above conditions occurred because standard operating procedures were
not sufficiently developed and program evaluations and monitoring were not
conducted. Key procedures for the administering the Student Tuition and Student
Loan Reimbursement Programs had not been established, including steps for:

•   Maintaining all records associated with each student loan reimbursement
    including the agreement and the service agreement,

•   Ensuring a service agreement is signed and maintained on file for all
    reimbursements,

•   Ensuring that the person(s) responsible for maintaining all data on student loan
    and tuition reimbursements is included as part of the Separation, Clearance, and
    Property Return Checklist (GPO Form 2938), and

•   Contacting the GPO Office of Finance and Administration when an employee
    separates from GPO before fulfilling their student loan or tuition reimbursement
    service agreement period.

Monitoring the process to ensure Service Agreements are executed prior to
reimbursement of tuition and student loan repayment is needed. Monitoring the
process to ensure Separation Clearance and Property Return Checklists are properly
completed at the time an employee separates from GPO is also needed.

OMB Circular A-123, Management Accountability and Control, June 21, 1995 states
that managers “must take systematic and proactive measures to develop and
implement appropriate, cost-effective management controls for results-oriented
management.” OMB Circular A-123 also states that Agency managers should
continuously monitor and improve the effectiveness of management controls
associated with their programs.

Without effective standard operating procedures and effective monitoring these two
key controls—execution of a service agreement and completion of the Separation
Clearance and Property Return Checklists—GPO cannot know if all aspects of the
Student Tuition and Student Loan Reimbursement Programs are operating as
intended.



                                         10
Recommendations

We recommend the Chief Human Capital Officer:

   1. Review the records involving two former employees who received student
      loan reimbursements and the one former employee who received a tuition
      reimbursement without satisfying their work requirement before separating
      from GPO and collect $20,779 from those former employees, where
      appropriate.

Management’s Response.

Management concurred with Recommendation 1 stating that it was working with
the GPO Office of Finance and Administration to collect the money. GPO Office of
Finance and Administration officials informed us that they had received the
appropriate information from Human Capital but had not yet issued collection
letters to the three individuals.

Evaluation of Management’s Response.

Management’s action is responsive to the recommendation. The recommendation is
resolved but open pending the actual collection action taken by the GPO Office of
Finance and Administration.

When the Tuition Reimbursement and Student Loan Reimbursement Programs is
reactivated:

   2. Develop standard operating procedures and conduct periodic monitoring of
      both programs.

   3. Contact all Business Unit Heads to reiterate eligible course reimbursement
      requirements as specified in Directive 625.6a, Chapter 11, “Nominations for
      Outside Training”.

   4. Ensure Service Agreements are executed prior to reimbursement of tuition
      and student loan repayment by effectively monitoring this process.

   5. Ensure Separation Clearance and Property Return Checklists are properly
      completed at the time an employee separates from GPO by effectively
      monitoring this process.




                                        11
Management’s Response.

Management concurred with Recommendations 2 through 5 stating that once the
Tuition Reimbursement and Student Loan Reimbursement programs are
reactivated it would develop Standard Operating Procedures, send a memorandum
to all Business Unit Heads, ensure that service agreements are executed, and
monitor the entire process. Management will also assure that Separation, Clearance,
and Property Return checklists are completed by either the departing employee or a
representative of his or her Business Unit.

Evaluation of Management’s Response.

Management’s planned action is responsive to the recommendation. The
recommendations are resolved. Since the student loan and tuition reimbursement
programs are currently suspended by GPO with no estimation as to when each will
resume, the recommendations are closed upon issuance of this final report.

Overall Management Comments.

The Chief Human Capital Officer provided additional overall comments to the draft
report. The Chief Human Capital Officer emphasized that it is the responsibility of
the GPO Office of Finance and Administration to collect Agency debts, not the Office
of Human Capital. The Chief Human Capital Officer stated that in 2009, the GPO
started the Continuing Education Curriculum to address employee skill gaps in basic
math, reading, and writing. As such, the reimbursement for the course in English
Composition and Literature and the reimbursement for the course in Pre-algebra
met the requirement of “Mission Related” as defined in GPO 625.6A, CH-18.

Evaluation of Overall Management Comments.

We agree that it is the responsibility of the GPO Office of Finance and Administration
to collect Agency debts. It is the responsibility of the Office of Human Capital to
establish sufficient management controls to identify debts arising by employees
who do not fulfill their service agreements related to student loan or tuition
reimbursements and to then notify the Office of Finance and Administration of those
debts so that collection action can start.

GPO did not have a Directive to support its Continuing Education Curriculum. In May
2009, GPO did enter into an inter-agency agreement with the U.S. Office of Personnel
Management (OPM) to establish the Continuing Education Program. In that
agreement, GPO stated that it had a substantial population of employees with basic
workplace skill deficiencies. As part of the agreement, a contractor provided by the
OPM would deliver training in the areas of basic math, reading, and writing.
However, that agreement specifically stated that all training would be provided at
GPO Headquarters and made no mention of reimbursement for college courses.
                                         12
Subsequent to the issuance of the draft audit report on May 25, 2012, staff from the
GPO Office of Human Capital were able to provide us copies of student loan service
agreements that we had reported in the draft report as missing. In addition, staff
from the GPO Office of Finance and Administration provided evidence of the
collection of a student loan reimbursement from a former employee which we had
reported in the draft report as being outstanding. We made adjustments to the final
report based on that subsequent information.




                                         13
Appendix A - Objectives, Scope, and Methodology

We performed the audit in December 2011 at the GPO Central Office in Washington,
D.C. We conducted the audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence that will provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Objective

To determine to what extent GPO safeguards its Tuition Reimbursement and Student
Loan Reimbursement programs against employees not fulfilling their service agreements.

Scope and Methodology

To meet our objectives we performed the following:

   •   Reviewed all applicable GPO policies and directives on employee separations,
       employee checkout procedures, student loan repayments, tuition
       reimbursements retention agreements, travel advances, salary advances
       and overpayments, and relocation payments.

   •   Interviewed management personnel from GPO’s offices of Human Capital and
       Finance and Administration responsible for developing policy for and
       administering the above areas.

   •   Obtained, from the GPO Office of Human Capital, a report of all employee
       separations during FY 2011 and available GPO Forms 2398 - Separation,
       Clearance, and Property Return Checklist.

   •   Requested from both the Offices of Human Capital and Finance and
       Administration all data on tuition reimbursements for FY 2011 and all data
       on student loan repayments from FY 2009 through FY 2011 since student
       loan reimbursements require a 3 year service agreement.




                                          14
Appendix A

Management Controls Reviewed

According to GPO Instruction 825.18A, “Internal Control Program,” May 28, 1997,
paragraph 7(a), “The Public Printer has the overall responsibility to ensure that an
effective internal control structure is established and maintained by GPO’s
managers for all programs, functions, and activities.”

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures the GPO management implemented
to reasonably ensure that the employee separations, employee checkout, student
loan repayment, tuition reimbursement, retention agreement, travel advance,
salary advance and overpayment, and relocation payment processes met GPO’s
objectives.

Validity and Reliability of Data – Policies and procedures that management has
implemented to reasonably ensure that valid and reliable data are obtained,
maintained, and fairly disclosed in reports (See Computer-Generated Data below).

Compliance with Laws and Regulations – Policies and procedures that management
has implemented to reasonably ensure that resource use is consistent with laws and
regulations.

The details of our examination of management controls disclosed a significant
weakness in GPO’s employee checkout process which we plan to address in a
subsequent audit. Other noted management control deficiencies are contained in
the report narrative. Implementing the recommendations in this report should
improve those other management control deficiencies.

Computer-generated data

We did not rely on computer-processed data for our conclusion. Therefore,
reliability was not assessed.




                                         15
Appendix B - Acronyms Used in the Report

CHCO      Chief Human Capital Officer
FY        Fiscal Year
GPO       Government Printing Office
HC        GPO’s Office of Human Capital
OIG       Office of Inspector General
OPM       Office of Personnel Management
SOP       Standard Operating Procedure




                                   16
Appendix C - Management’s Response




                             17
Appendix C- Management’s Response




                             18
Appendix C- Management’s Response




                             19
Appendix D - Separation Clearance and Property Return Checklist




                               20
         Appendix E – Review of Student Loan Reimbursement Data

 Employee     2008        2009       2010       2011      Service Agreement/Date               Analysis
             Amount     Amount     Amount     Amount
Employee 1    $10,000    $10,000    $10,000    $10,000          12/21/2010         No exceptions noted.
Employee 2                  $801                                  1/29/09          No exceptions noted.
Employee 3                         $10,000                          no             Employee separated from GPO
                                                                                   on September 10, 2011 (within
                                                                                   3 years) without repaying the
                                                                                   student loan reimbursement.
                                                                                   GPO could not produce a copy
                                                                                   of the service agreement. Upon
                                                                                   her separation from GPO,
                                                                                   Employee 3 did submit a
                                                                                   Separation Clearance and
                                                                                   Property Return Checklist;
                                                                                   however, the checkbox for
                                                                                   student loan repayment was left
                                                                                   blank.
Employee 4              $10,000    $10,000                      4/24/2007          Employee left GPO in 2011—
                                                                                   after the 3-year service agreement
                                                                                   data. GPO could not produce a
                                                                                   copy of the employee’s
                                                                                   Separation, Clearance, and
                                                                                   Property Return Checklist.
Employee 5    $10,000                                      No service agreement    No exceptions noted. Although
                                                                available.         GPO could not produce a copy of
                                                                                   the signed service agreement, it
                                                                                   could provide evidence that it
                                                                                   collected the loan reimbursement
                                                                                   amount from the employee.
Employee 6                         $10,000                      5/27/2010          Employee separated without
                                                                                   repaying GPO.

                                                                                   Employee left GPO on August
                                                                                   27, 2011. The Separation
                                                                                   clearance form did note the
                                                                                   student loan but no record of her
                                                                                   paying it back.
Employee 7               $7,155    $10,000                       8/7/2007          No exceptions noted.
Employee 8              $10,000                                  7/6/2007          No exceptions noted.




                                                     21
   Appendix F – Review of Tuition Reimbursement Data

   Employee   Amount        Date          Description                           Analysis
                            Paid
Employee 9    $1,228.25   11/30/2010   Tuition, fee, and       Courses unrelated to job duties.
                                       books for an online
                                       course in English
                                       Composition and
                                       Literature at Liberty
                                       University
Employee 10   $1,568.25   11/16/2010   Tuition and books       Courses unrelated to job duties.
                                       for a course,           Justification for training directly
                                       Introduction to         contradicts GPO Directive 625.6AGPO
                                       Business at Trinity     Directive 625.6a Training and Career
                                       College.                Development, Chapter 11 Nominations for
                                                               Outside Training, paragraph 2 states that
                                                               employees may not receive training solely
                                                               for the purpose of earning a degree. Ms.
                                                               Marshall's justification states, "pursuing a
                                                               degree at Trinity Washington university
                                                               and minoring in Human Resources will
                                                               allow me to develop here at GPO.
Employee 11    $368.64      3/4/2011   Tuition and text        Courses unrelated to job duties. Course
                                       book for a course in    was taken to (1) obtain a degree, and to (2)
                                       personal and            help him get a promotion - both of which
                                       Community Health        are specifically disallowed.
                                       and a textbook,
                                       "Intro to Fiction, at
                                       Anne Arrundel
                                       Community College.
Employee 12   $1,654.50    8/19/2011   Tuition and resource    Courses unrelated to job duties.
                                       fee for "Intro to       Justification states only "the course is
                                       Biochemical             related to his degree in criminal justice". I
                                       Forensics" at           t would probably be reasonable to believe
                                       George Mason            that the officer's knowledge of biochemical
                                       University.             forensics could possible aid GPO in the
                                                               case of some type of terrorist attached but
                                                               all investigations are performed by the
                                                               OIG.
Employee 13    $251.36      1/5/2011   Tuition for a           Separated without repaying a tuition
                                       photography course      reimbursement.
                                       at University of
                                       District of Columbia.   Employee signed 6-month service
                                                               agreement dated 1/5/11 and left the
                                                               Agency on 6/18/11 (less than 6 months).




                                              22
    Appendix F – Review of Tuition Reimbursement Data

   Employee   Amount      Date Paid        Description                           Analysis

Employee 13    $527.76      5/3/2011   Tuition and textbooks     Separated without repaying a tuition
                                       for a biology course at   reimbursement and courses unrelated to
                                       the University of the     job duties.
                                       District of Columbia.
                                                                 Course was not related to the employee's
                                                                 or the organization's function. Employee
                                                                 signed 6-month service agreement on
                                                                 2/8/11 and left GPO on 6/18/11. No
                                                                 evidence that GPO collected the money
                                                                 back.
Employee 14   $3,042.72    3/22/2011   Tuition and books for     No exception noted.
                                       a course on Project
                                       Management at Johns
                                       Hopkins.
Employee 14   $3,070.98   12/20/2010   Tuition and books for     No exception noted.
                                       a course on Systems
                                       Development at Johns
                                       Hopkins.

Employee 15   $2,226.34     1/5/2011   Tuition and books for     No exception noted.
                                       a course on Leadership
                                       and Conflict
                                       Resolution at Strayer
                                       College
Employee 16   $1,577.65   12/22/2010   Tuition and books for     No exception noted.
                                       a course on Managing
                                       People in Technical
                                       Organizations from
                                       University of
                                       Maryland University
                                       College.
Employee 16   $1,449.48     5/3/2011   Tuition and books for     No exception noted.
                                       a course on Economics
                                       and Financial Analysis
                                       from University of
                                       Maryland University
                                       College
Employee 17   $3,079.64   12/20/2010   Courses on                No exception noted.
                                       Information Literacy
                                       and Quantitative
                                       Methods at Trinity
                                       College
Employee 18    $902.17     5/26/2011   Course on Pre-algebra     Courses unrelated to job duties. Course
                                       at Montgomery             description is that is a review of the
                                       College                   fundamentals of arithmetic. Course was
                                                                 not related to the employee's or the
                                                                 organization's function.


                                               23
Appendix G - Status of Recommendations

 Recommendation       Resolved   Unresolved     Open/ECD*        Closed
       1                 X                    October 31, 2012
       2                 X                                         X
       3                 X                                         X
       4                 X                                         X
       5                 X                                         X

*Estimated Completion Date.




                                    24
Appendix H - Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Chief Financial Officer




                                       25
Major Contributors to the Report

Karl Allen, Lead Auditor
Patricia Mitchell, Senior Auditor




                                    26
